No.20-187

SUPREME COURT OF THE UNITED STATES
Okwudili Chukwuani,
Petitioner,
vs.
Solon School District,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court ofAppeals for the
Sixth Circuit
PETITIONER’S REPLY BRIEF
Okwudili Francis Chukwuani, MD
Petitioner
7309 Winchester Drive,
Solon, Ohio 44139
Tel.: (713) 574-0043
Fax: (713) 357-9405
E-Mail:
okwv60@vahoo.com

RECEIVED
OCT 1 5 2020

1

I.

Questions Presented

1. Can an unconstitutional denial of parental rights by a State Court, due
to a complaint about IDEA "stay put" violation, be used to deny
jurisdiction for an administrative appeal at a Federal Court?
2. Whether the Supreme Court's decision in Winkelman v. Parma City School
District, was violated by the 6^ Circuit Court of Appeal's denial of
jurisdiction for an administrative appeal by a pro se parent?
3. Can a parent who satisfied the IDEA definition of a parent in 34 CFR
300.30(b) at the time he filed an IDEA due process request, be denied
jurisdiction to appeal the same due process in a Federal Court, without voiding
the entire due process?

2

II.

Table of Contents

I.

Questions Presented

2

II.

Table of Contents

3

III.

Table of Authorities

4

IV.

Introduction

5

V.

Rebuttal of Reasons for Denying Petition

6

VI.

Clarification of Reasons for the Writ

9

VIII. Conclusion

10

3

III. Table of Authorities
Cases

Troxel v. Granville, 530 U.S. 57 (2000....

7,9

Stanley v. Illinois, 405 US 645, 651; 92 S Ct 1208, (1972)

7

Washington v. Glucksberg, 521U.S.702,720

7,9

Parham v. J.R., 442 U.S. 584, 602

7

Reno v. Flores, 507 U.S. 292, 304

7,9

Jacob Winkelman v. Parma City School District, 550 U.S. 516 (2007)

2

Meyer v. Nebraska, 262 U.S. 390, 399, 401 (1923

9

Statutes
2,8

34 CFR 300.30(b)

Constitutional Provisions
United States Constitution, Amendment V and XIV

7,9

Corporate Disclosure

The petitioner, Dr. Okwudili Francis Chukwuani, has no affiliation or financial ties with
any non- governmental corporate entity.

4

INTRODUCTION
The respondent’s attempt to show that this petition for a writ of certiorari fails to meet any Rule
10 criteria, hinges on three reasons, none of which is valid, because they were based on an
incorrect interpretation of the basis for the writ. The respondent re-formulated the questions
asked in this petitioner’s request for a writ of certiorari, into a format that will suit the
respondent’s purpose for a dismissal; but in doing so, the respondent altered the
substantial reasons for this petition for a writ of certiorari, as expressed in the three
questions presented. The following errors were noticed in the respondent’s brief:
1. Denial of the “historical background” of the case that was presented in the petition and
absence of a sequential chronological presentation of the case in the respondent’s
“Statement of the Case” - so that the questions raised in the petition will not be
appreciated. This was evident in the respondent’s “STATEMENT OF THE CASE”,
which was not presented in a correct chronological sequence with dates.
2. Re-formulated the certiorari questions into a format that fits the respondent’s intended
argument for a dismissal, regardless of the issues raised in the original questions
presented in the petition. The two questions presented by the respondent, also did not
address the issues raised in the petition, this will be clarified in the petitioner’s rebuttal.
3. Re-formulated the problems to be addressed in the petition for the writ of certiorari into
ordinary personal issues with no relevance in federal law. This will be clarified in the
petitioner’s rebuttal.
All the above errors led the respondent to conclude that:
1. ‘There is no conflict among Circuit Courts or State Courts of Last Resort as to the Sixth
Circuit’s Basis for Dismissal”, whereas the petitioner’s reason for requesting the writ

5

was not based on the presence of such a conflict, but some substantial issues revealed in
the “historical background”.
2. “This Petition Also Fails to Raise an Important Question of Federal Law”, whereas the
respondent had mis-interpreted and reformulated the questions, and was focused on that
re-formulated version rather than the real questions presented in the petition. Whereas
the respondent’s argument was applicable to the reformulated questions, they were not
applicable to the questions presented in the petition. This will be clarified further in the
rebuttal.
3. “Because Chukwuani’s Petition Hinges on Alleged Factual Errors and Misapplications
of Law, This Court, Should Deny Certiorari”, whereas this argument was applicable to
the reformulated version of the questions as presented by the respondent, it is not
applicable to the actual questions presented in the petition. This will be addressed by the
petitioner in his rebuttal of the respondent’s reason to dismiss the petition for a writ of
certiorari.

REBUTTAL OF REASONS FOR DENYING THE PETITION
The petitioner, clarifies as follows:
1. The “historical background”1 of this case was presented by the petitioner, in a
chronological sequence with dates, in order to enable a comprehensive appreciation of
the certiorari questions.
2. The three questions presented in this petition for a writ of certiorari, were mis-interpreted
and re-formulated by the respondent into a format that fits the respondent’s intended
argument for a dismissal; but in doing so, the substantial reasons for requesting for a writ
1 Please refer to the "Historical Background "section in the petition.

6

of certiorari was lost. This is evident in the school’s “REASONS FOR DENYING THE
PETITION”, Section II, Subsections A and B as follows:
a. The first question in the petition, was mis-interpreted and reformulated by the
school as, “Whether federal jurisdiction can be denied based on a state court
judgement” which does not convey the same meaning as the original question:
“Can an unconstitutional denial of parental rights by a State Court, due to a
complaint about IDEA “stay put” violation, be used to deny jurisdiction for
an administrative appeal at a Federal Court?” - which is asking whether a
federal court can sanction a state court’s departure from the accepted and
usual course of judicial yroceedinss?. Hence, the school mis-interpreted the
original certiorari question and was actually attempting to dismiss that mis­
interpreted version of the question in their entire argument. The school had no
valid argument to dismiss the original certiorari question. Petitioner’s parental
right was denied based on a state court’s departure from the accepted and usual
course of judicial proceedings, which is unconstitutional2 and cannot be
sanctioned by a federal court. Petitioner is a fit parent3 who was denied parental
rights without due process, because he was challenging a “stay put” violation
under the IDEA, perpetrated by the respondent. It was even more concerning that
the petitioner’s denial of parental right was to enable the respondent to dismiss an

2 See this Court's decision on Troxel v. Granville, 530 U.S. 57 (2000), The Fourteenth Amendment's Due Process
Clause has a substantive component that "provides heightened protection against government interference with
certain fundamental rights and liberty interests", Washington v. Glucksberg, 521U.S.702,720, including parents'
fundamental right to make decisions concerning the care, custody, and control of their children, see, e.g., Stanley
v. Illinois, 405 U.S. 645,651. Pp.63-66.
3 Justice O'Connor in Troxel v. Granville, noted that 'There is a presumption that fit parents act in their children's
best interests, Parham v. J.R., 442 U.S. 584, 602; there is normally no reason for the State to inject itself into the
private realm of the family to further question fit parents' ability to make the best decisions regarding their
children, see e.g., Reno v. Flores, 507 U.S. 292, 304.
7

on-going due process by Ohio Department of Education (ODE)4 for procedural
violations under the IDEA. This created a situation that undermines the integrity
of the procedural safeguard in the IDEA and the constitutional rights of a parent.
It is a very important problem in federal law which can be resolved by this court.
b. The school also had no valid argument to dismiss the second certiorari question,
since their argument was dependent on their mis-interpreted version of the first
certiorari question, which did not recognize that there is a state court’s departure
from the accepted and usual course ofjudicial proceedings. which the federal
court sanctioned by denying jurisdiction. The petitioner is a pro se “parent” so it
is relevant to review, “Whether this court’s decision in Winkelman v. Parma
City School District, was violated by the 6th Circuit Court of Appeal’s denial
of jurisdiction for an administrative appeal by a pro se parent? Here the
administrative appeal in question is under the Individual with Disability
Education Act (IDEA).
c. The third question in this petition was mis-interpreted and reformulated by the
school as, “Whether standing at the onset of litigation confers standing
throughout” which does not convey the same meaning as the original third
question in the petition, “Can a parent who satisfied the IDEA definition of a
parent in 34 CFR 300.30(b) at the time he filed an IDEA due process
request, be denied jurisdiction to appeal the same due process in a Federal
Court, without voiding the entire due process?” This is because the due
process hearing was conducted by the Ohio Department of Education (ODE)

4 The Impartial Hearing Officer (IHO) of the ODE was aware of this situation and so refused to deny the due
process, despite the state court's denial of parental rights, but the district court and the 6th circuit courts denied
jurisdiction.

8

Impartial Hearing Officer (IHO) in September 2018 and by the State Level
Review Officer (SLRO) in January 2019. despite the denial of petitioner’s
parental right through a state court’s departure from the accepted and usual
course of judicial proceedings in May 2018. Neither the IHO and SLRO agreed
to deny jurisdiction and dismiss the due process as requested by the respondent because they witnessed the “stay put” violation and the sequence of events that
led to the denial of parental rights5. However, the district court and the 6th circuit
court denied jurisdiction in May 2019 and in April 2020 respectively, based on
the same unconstitutional denial of parental rights by a state court in May 2018.
There is an obvious conflict and lack of consistency in the handling of the due
process request, due to the denial ofjurisdiction by the district court and by the
6th circuit court - which raises the following questions:
i. Can the entire due process request be voided because of the inconsistency
in the denial of jurisdiction between the trier of facts and the appellate
courts, while allowing an unconstitutional denial of parental rights and
preventing a review of procedural and “stay put” violations under the
IDEA, thereby undermining the integrity of the IDEA procedural
safeguards?
ii. Can jurisdiction be granted by the federal court to avoid sanctioning an
unconstitutional denial of parental rights and to protect the integrity of the
IDEA by allowing for the administrative review of the allegation of

5 Both parents had a shared parenting plan, with equal decision making and alternate week parental custody, but
the school colluded with one parent to seek to deny the petitioner parental rights for the sole purpose of allowing
the "stay put" violation and dismissing the due process request - although it is a very important procedural
safeguard in the IDEA. This is well clarified in the "Historical Background" section of the petition - which was
presented in a chronological sequence with dates.

9

procedural and “stay put” violations under the IDEA? This constitutes a
very important problem in federal law which can be resolved by this court
by granting this writ of certiorari. The constitution6 of the United States
and the integrity of the IDEA procedural safeguard are both at stake,
which makes this petition for a writ of certiorari very important.
The school did not address any of the above issues because they mis-interpreted and
reformulated the third question in the petition for this writ of certiorari. It is better to base
the decision on this petition for a writ of certiorari on the original questions posed in the
petition rather than on mis-interpretation and reformulated questions presented by the
respondents.

CLARIFICATION OF THE REASONS FOR THE WRIT
3. This certiorari was requested on the basis of Rule 10 (a) and 10 (c) as follows:
a. Rule 10 (a) - The 6th circuit court and the district court, by denying jurisdiction,
sanctioned or adopted an order that was based on a departure from the accepted
and usual course of judicial proceedings by a state court. This is because the state
court’s process did not follow the accepted and usual course of judicial
proceedings. Moreover, the denial of jurisdiction prevented an administrative
6 In Troxel v. Granville, 530 U.S. 57 (200), Justice O'Connor, joined by THE CHIEF JUSTICE, JUSTICE GINSBURG, and
JUSTICE BREYER, concluded that §26.10.160(3), as applied to Granville and her family, violates her due process
right to make decisions concerning the care, custody and control of her daughter. Pp. 63-75. ****The Fourteenth
Amendment provides that no State shall "deprive any person of life, liberty, or property, without due process of
law." We have long recognized that the Amendment's Due Process Clause, like its Fifth Amendment counterpart,
"guarantees more than fair process." Washington v. Glucksberg, 521 U.S. 702, 719 (1997). The Clause also
includes a substantive component that "provides heightened protection against government interference with
certain fundamental rights and liberty interests." Id., at 720; see also Reno v. Flores, 507 U.S. 292, 301 - 302
(1993). The liberty interest at issue in this case - the interest of parents in the care, custody, and control of their
children - is perhaps the oldest of the fundamental liberty interests recognized by this Court. More than 75 years
ago, in Meyer v. Nebraska, 262 U.S. 390,399,401 (1923), we held that the "liberty" protected by the Due Process
Clause includes the right of parents to "establish a home and bring up children" and "to control the education of
their own."

10

process designed to protect the integrity of the IDEA procedural safeguard and to
prevent some aspects of the Constitution of the United States from being
violated.
b. Rule 10 (c) - The 6th circuit court and the district court decided on an important
federal question in a way that conflicts with the relevant decisions of this court.
This is because the denial ofjurisdiction on the basis of pro se parent under the
IDEA, conflicts with this Court’s decision in Winkelman v. Parma School
District.
c. The certiorari was not based on erroneous factual findings or misapplication of a
properly stated rule of law, as claimed by the respondent. It is the mis­
interpretation and incorrect re-formulation of the questions that drives that
incorrect claim.

4. The three questions in this petition for a writ of certiorari, presented some important
problems in federal law which if resolved by this court will help in:
a. Protecting the integrity of the IDEA procedural safeguards or its checks and
balances.
b. Protecting the constitutional rights of parents to participate in the education of
their children by ensuring that those rights are not denied without due process.

CONCLUSION
Based on the above reasons, I respectfully request for this petition for a writ of certiorari to be
granted.

11

Respectfully submitted on this 11th day of October, 2020.
Okwudili Francis Chukwuani, MD
Pro Se /Parent/Petitioner
7309 Winchester Drive, Solon, Ohio 4439 Tel: (713) 574-0043
Fax: (713) 357-9405; E-Mail: okwv60@vahoo.com

12

